        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Special Report
Allegations of Conflict of Interest
Regarding Licensing of PROTECT
by Argonne National Laboratory




DOE/IG-0819                           August 2009
                             Department of Energy
                                Washington, DC 20585

                                     August 5, 2009


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on "Allegations of Conflict of
                         Interest Regarding Licensing of PROTECT by Argonne
                         National Laboratory"

SUMMARY

In February 2009, the Office of Inspector General received a letter from Congressman
Mark Steven Kirk of Illinois, which included constituent allegations that an exclusive
technology licensing agreement by Argonne National Laboratory was tainted by
inadequate competition, conflicts of interest, and other improprieties. The technology in
question was for the Program for Response Options and Technology Enhancements for
Chemical/Biological Terrorism, commonly referred to as PROTECT. Because of the
importance of the Department of Energy's technology transfer program, especially as
implementation of the American Recovery and Reinvestment Act matures, we reviewed
selected aspects of the licensing process for PROTECT to determine whether the
allegations had merit. In summary, under the facts developed during our review, it was
understandable that interested parties concluded that there was a conflict of interest in
this matter and that Argonne may have provided the successful licensee with an unfair
advantage. In part, this was consistent with aspects of the complaint from Congressman
Kirk's constituent.

BACKGROUND

PROTECT was developed in response to the 1995 sarin gas attacks in Tokyo. In 1997, a
five-year effort was initiated between the Departments of Energy, Transportation, and
Justice to develop a chemical/biological warning system. Three of the Department's
National Laboratories -- Argonne, Sandia and Livermore, were involved in developing
various aspects of PROTECT. The effort concluded with the commencement of tests of
the system at the Washington Metropolitan Area Transit Authority. Argonne National
Laboratory applied for a copyright of PROTECT's intellectual property in November
2002. Argonne, operated for the Department under contract with UChicago Argonne
LLC, subsequently installed PROTECT at other transit systems to demonstrate its
capabilities.

In 2006, Argonne concluded that PROTECT had commercial application and decided to
transfer the technology to the private sector. In October 2006, based on consultations
with its own research staff, Argonne sent out solicitations to eight potential licensees.
                                             2

Argonne announced the successful offeror in February 2007 and, in July 2007, awarded
an exclusive license for PROTECT. Beginning in 2002 through the award of the license,
the winning firm had been a sole-source subcontractor employed by Argonne in direct
support of PROTECT. As a condition of the award, Argonne agreed to transfer the
technology to the licensee by providing access to its expertise through "work-for-others"
arrangements.

RESULTS OF REVIEW

We found that:

   • Despite a contractual requirement that it provide "fairness of opportunity" in its
     licensing activities, Argonne did not list the licensing opportunity on its web site
     and instead relied only on personal knowledge of Laboratory employees when
     deciding what firms would be provided the opportunity to compete for the
     exclusive PROTECT license;

      Argonne's actions to avoid or ameliorate conflicts of interest prior to awarding the
       license were less than satisfactory. Specific conflict of interest mitigation
       measures were not applied in spite of Argonne's long-standing business
       relationship with the firm that was ultimately awarded the exclusive license for
       PROTECT;

      Researchers at Argonne provided officials at two transit agencies interested in
       installing PROTECT the option of awarding work to the subcontractor to which
       Argonne had not yet granted the PROTECT license. In one instance, before the
       competition and award of the exclusive license, an Argonne official went so far as
       to recommend that an interested transit agency contract directly with Argonne's
       subcontractor so it could avoid Laboratory overhead and indirect costs. Under the
       proposal, the transit agency would have avoided a portion of the overhead and
       indirect costs because Argonne would have provided technology, advice and
       assistance necessary for system installation indirectly through a work-for-others
       arrangement with its subcontractor; and,

      Once it became aware of the complaint related to unfair competition, Argonne
       informed the Laboratory's ombudsman of the issue but chose not to use his
       services to help resolve the issue. This action could not be explained to our
       satisfaction and appeared to undermine one of the basic purposes of having
       ombudsmen at the Department's laboratories.

Under these circumstances, we concluded that the competition and licensing process for
PROTECT had not completely satisfied Department objectives related to ensuring that
technology partnering programs provide fair opportunities to interested parties. Further,
as a result of Argonne's actions to permit the subcontractor to enter into direct agreements
with transit system customers for PROTECT-related work prior to the award of the
                                             3

license, the Department was not reimbursed for overhead and indirect costs expenditures
incurred by Argonne. Such reimbursements would have appropriately benefited the U.S.
taxpayers by absorbing relevant costs of Argonne National Laboratory operations.

The Department's oversight of Argonne's competition and licensing activities was
limited. The Department's directive, DOE Facilities Technology Partnering Program,
DOE Order 482.1, requires reviews and appraisals of facilities contractors, like Argonne,
to ensure they carry out their technology partnering activities in accordance with
applicable laws, regulations, policies, and delegations of authority. Officials at the
Department's local offices, the Argonne Site Office and the Chicago Office, informed us
that the Department does not require that the laboratories document their "fairness of
opportunity" procedures, and, thereby, relies on the contractors to decide what
mechanism they should employ to meet this requirement. We noted, however, that the
contract with the Department specifically required that Argonne prepare such procedures.
The position expressed to us by responsible Federal officials was inconsistent with the
plain language of the contract.

Local Federal officials told us that they were familiar with PROTECT and Argonne's
working relationship with its subcontractor, and had reviewed the work-for-others
agreements to verify that there was no competition with the private sector. While these
same officials indicated that they were briefed on the exclusive license after it was
awarded, they pointed out that they were not required to and did not review or approve
the licensing agreement prior to award. The Argonne Site Office did, however, approve
Argonne's work-for-others request to engage in PROTECT work with the subcontractor
that ultimately would be awarded the exclusive license. However, these Federal officials
asserted that they were unaware that the subcontractor was presenting itself as the
licensee and "business partner" before Argonne competed the PROTECT license. As
best we could determine, Argonne did not inform the Federal officials of this fact. In our
judgment, this sequence of events was one of the most troubling aspects of this matter
and may have contributed to the concerns raised by the complainant.

Collaboration with and technology transfer to the private sector will increase
substantially through continued growth of the Department's patent portfolio, and as the
Department implements the science elements of the American Recovery and
Reinvestment Act of 2009. The Department's National Laboratory system, including
Argonne, is heavily involved in this taxpayer-funded effort. As such, it is essential that
the Department's "fairness of opportunity" doctrine, a practice that embodies the
requirement to widely disseminate information on technology transfer opportunities, is
rigorously adhered to. As noted in the Department's policy statement on technology
transfer, this doctrine, among other things, is a guiding principle to help improve the
deployment of energy technology and applications that address both public and private
needs. Under the circumstances, we made several recommendations designed to help
improve the safeguards associated with technology transfer license competitions. We
also recommended that the cognizant contracting officer evaluate Argonne's actions as
they relate to the relationship with the subcontractor and license award and make
performance fee and/or other adjustments, as appropriate.
                                           4

MANAGEMENT REACTION

Management indicated that it shared our concern regarding ensuring "fairness of
opportunity" at all of the Department's laboratories. Although it supported the
development of formalized procedures for applying this doctrine and agreed that more
robust standards of conduct could help prevent the appearance of conflicts of interest,
management disagreed with a number of the conclusions contained in the report.
Management's comments are included as Appendix 3. Specific reasons for management's
disagreements and our responses are summarized in the body of the report.

Attachment

cc:   Deputy Secretary
      Under Secretary for Science
      Chief of Staff
      Director, Office of Science
      Acting Technology Transfer Coordinator
      Assistant General Counsel for Technology Transfer and Intellectual Property
      Manager, Argonne Site Office
SPECIAL REPORT ON ALLEGATIONS OF CONFLICT OF INTEREST
REGARDING LICENSING OF PROTECT BY ARGONNE NATIONAL
LABORATORY


TABLE OF
CONTENTS


   Licensing of PROTECT

   Details of Finding ..............................."" ....... ..... ............... .... ........... ........... .............. ....... .... I 


   Recommendations ............................................................................................................. . 6 


   Comments ....................................................................... ,.................. ,.......................... ,...... 7 



   Appendices

   1. Objective, Scope, and Methodology ............................................................................. 9 


   2. Related Audit Reports .................................................................................................... 10 


   3. Management Comments .....__ ....____ ...____ ..______________ ..__ .________ .__________ ..________ ..______________ ...____ . 11 

LICENSING OF PROTECT 


Transparency in   As a Government-funded entity, it is important that actions at
Competition and   Argonne National Laboratory (Argonne or Laboratory), a
Licensing         contractor-operated facility, meet the Department of Energy's
                  (Department) standards for fairness and accountability. We
                  identified several issues related to Argonne's competition and
                  licensing ofPROTECT (Program for Response Options and
                  Technology Enhancements for Chemicallbiological Terrorism)
                  that, in our opinion, rendered Argonne's process less than
                  satisfactory.

                                        Fairness of Opportunity

                  While Argonne appeared to generally follow procedures used by
                  other Departmental Office of Science laboratories, its actions may
                  have been insufficient to ensure that its license offering provided
                  adequate notice to potential bidders. Argonne's prime contract
                  with the Department requires that: "In conducting its technology
                  transfer activities, the Contractor shall prepare procedures and take
                  all reasonable measures to ensure widespread notice of availability
                  of technologies suited for transfer and opportunities for exclusive
                  licensing .... " This requirement, referred to as "fairness of
                  opportunity," is included in the technology transfer clause of
                  Argonne's contract.

                  Despite such language, our review disclosed that Argonne had not
                  developed specific, documented policy regarding how it would
                  provide "fairness of opportunity" in its licensing methods. In fact,
                  we observed that there were no specific, documented policies
                  related to ensuring that interested parties were provided the
                  opportunity to bid or compete for licenses. Technology Transfer
                  officials at the Laboratory told us, and we confirmed, that there is
                  no requirement for Argonne to abide by the licensing regulations
                  that the Federal government is required to follow, as contained in
                  35 U.S.c. 209, when it engages in licensing activity. In particular,
                  officials noted that they were not specifically required to publish
                  the intent to license technologies or the actual award of exclusive
                  licenses. In the absence of a documented and approved
                  methodology, Laboratory officials used ad-hoc or informal
                  approaches for identifying firms that were permitted to compete
                  for licensing opportunities.

                  According to Argonne officials within the Office of Technology
                  Transfer, the primary means of providing notice of opportunities
                  are through website postings, various media sources, and contacts
                  made at conferences. While we confirmed that Argonne had
                  posted information seeking collaboration on PROTECT on its



Page 1                                                            Details of Finding
         website as early as 2003, it never posted information regarding the
         opportunity to compete for the exclusive license. As noted earlier,
         actions taken by Argonne appeared to be generally consistent with
         the practices of other Office of Science laboratories we contacted.
         However, with regard to PROTECT competition, Technology
         Transfer officials told us that they did not maintain records of who,
         if anyone, had contacted the Laboratory regarding collaboration
         opportunities, and instead developed the list of eight firms that it
         permitted to compete for the exclusive license solely by canvassing
         its principal investigators. These same officials believed that these
         individuals were in the best position to know the market and know
         who might be interested in competing because of their attendance
         at trade shows and conferences. The complainant in this case
         indicated Argonne's approach was not completely effective in that
         it did not identify his firm, an organization he claimed to be
         interested in competing. Argonne stated that its primary intent of
         the competition was to maximize the application ofthe technology
         in the private sector and to maximize the value to Argonne.

         We evaluated the actual process Argonne employed to select the
         firm granted the PROTECT exclusive license. Our review
         disclosed that Argonne officials, independent of the actual
         developers/inventors of the system, performed a comparative
         evaluation of the proposals it received in response to the limited
         solicitation. We found no reason to take issue with the specific
         evaluation and selection procedures in this case; and, we noted that
         after consideration of a number of evaluation factors, the firm
         selected for the exclusive license outscored other bidders by a wide
         margin. As with any situation in which an incumbent bids for
         related contracts or follow-on work, such a firm may have some
         unavoidable, inherent advantage over other bidders because of its
         previous involvement with PROTECT. Such was the fact pattern
         in this case. Officials at Argonne expressed their view that the
         practice of having officials independent of inventors/researchers
         perform the bid evaluations helped neutralize the impact of any
         advantage that may have existed.

                                 Conflict of futerests

         The complainant in this case also alleged that Argonne unlawfully
         competed with the private sector in that it referred to the firm to
         which the PROTECT license was awarded as a "business partner."
         The complaint also indicated that Argonne permitted the firm to
         refer to itself in advertisements and solicitations as an Argonne
         "business partner." The complainant believed that such references
         permitted its competitor to unfairly leverage the significant



Page 2                                                   Details of Finding
         investment made by the Government (Le., taxpayer provided
         funds) in Argonne's research to its advantage. In 2002, the flnn
         which was eventually granted the exclusive license was awarded a
         sole-source contract by Argonne to provide equipment and
         implementation assistance for PROTECT. This finn provided
         cameras, software for accessing and controlling the cameras, and
         assisted Argonne in the PROTECT demonstration installations in
         several major public transportation systems. In various literature
         and business communications, the flnn referred to its relationship
         with Argonne as that of a "business partner." Laboratory officials
         were also alleged to have used the same tenn when describing the
         finn. Argonne officials, in discussing the "business partner"
         reference, indicated that the true nature ofthe relationship was that
         of a licensee. Argonne officials did, however, concede that the
         reference to "business partners" may have been inappropriately
         used and indicated that they had advised researchers and program
         officials to be more judicious in their descriptions in the future.

         Consistent with the tenninology used to describe its relationship
         with its subcontractor, we also found that Argonne may have
         improperly become an advocate for its subcontractor during
         negotiations with a Federal transportation agency interested in
         PROTECT. In partiCUlar, we identified two situations in which
         Argonne suggested to potential clients that the Laboratory could
         install PROTECT directly or that the system could be procured
         through one of Argonne's subcontractors. In one instance a
         researcher went as far as to recommend contracting directly with
         the subcontractor, noting that using Argonne would most likely
         add additional time and cost to the contracting process. In the
         second instance, Argonne allowed its subcontractor to enter into an
         agreement with a transit authority before it had received the
         exclusive license for the technology. The fact that the
         subcontractor was perfonning the work for the transit authority
         was subsequently published in a prominent periodical. In our
         opinion, these actions, taken before Argonne competed and
         awarded the exclusive license, essentially gave the subcontractor
         exclusive access to the work without providing the same
         opportunity to other finns.

         Argonne officials told us that one factor that influenced their
         decision to pennit the subcontractor to contract directly for
         PROTECT in the second instance was one of indemnification.
         They stated that the transit system customer with which they were
         dealing demanded that Argonne provide indemnification in the
         event of terrorist attacks. Argonne explained that the issue
         sometimes came up with States or other local government entities,



Page 3                                                   Details of Finding
         however, Federally-funded organizations are prohibited from
         providing indemnification. We were told the finn that ultimately
         received the exclusive license was willing to provide the requested
         coverage. However, the evidence we examined did not mention
         the indemnification issue. On the contrary, the evidence showed
         that the subcontractor was eager to start work on the project and
         was concerned about the financial impacts resulting from further
         delays.

         While Argonne had conflict of interest policies and had developed
         a conflict of interest management plan for the license, it had not
         documented standards of conduct to guide employee actions when
         developing and promoting intellectual property. The standards of
         conduct, for example, could address how Argonne employees are
         to interact with and refer to potential customers, subcontractors,
         sponsors, and end-users; define acceptable outreach activities;
         describe authorities for negotiating agreements, and establish
         periodic reviews. Such standards could serve to educate
         researchers about their responsibilities to protect the interests of
         Argonne and the Department and help to prevent the appearance of
         and actual conflicts of interest during the commercialization of
         Laboratory inventions.

                                Complaint Resolution

         As we observed in our Audit Report on Management ofPatent and
         Licensing Activities at Department-Owned, Contractor-Operated
         Laboratories (DOEIIG-0479, August 2000), expanded technology
         transfer activities were likely to give rise to complaints that
         Laboratories were competing with the private sector. To address
         those issues, the Department's Technology Transfer Working
         Group recommended the laboratories establish ombudsmen to help
         resolve disputes or complaints. We noted, however, that for
         complaints it received regarding the PROTECT licensing
         agreement, Argonne did not involve its ombudsman, other than to
         infonn him ofthe complaint. Instead, according to an official we
         spoke to, the Laboratory noted that since the matter was political in
         nature and had been referred by a Congressman, they decided to
         route the complaint through the Government Affairs Office. While
         Argonne's responses provided a good deal of infonnation and we
         found no reason to question their veracity, Argonne did not involve
         the nonnal presumptively impartial, collaborative, and
         participative resolution style nonnally associated with actions
         handled by ombudsmen. There is no guarantee that these issues
         would have been resolved differently had the ombudsman been




Page 4                                                   Details of Finding
                     more directly involved, however, the interaction with an impartial
                     individual may have facilitated resolution of the issue.

Departmental         The Department's oversight of Argonne's competition and
Oversight            licensing activities was limited. The Department's directive,
                     DOE Facilities Technology Partnering Program, DOE Order
                     4821.1, requires reviews and appraisals of facilities contractors,
                     like Argonne, to ensure they carry out their technology partnering
                     activities in accordance with applicable laws, regulations, policies,
                     and delegations of authority. Officials at the Department's local
                     offices, the Argonne Site Office and the Chicago Office, informed
                     us that the Department does not require that the laboratories
                     document their "fairness of opportunity" procedures, and thereby
                     relies on the contractors to decide what mechanism they should
                     employ to meet this requirement. As noted earlier, however, such
                     is not the case in that Argonne's contract with the Department
                     specifically requires that it prepare such procedures.

                     Local Federal officials stated that they were familiar with
                     PROTECT and Argonne's working relationship with its
                     subcontractor. They had reviewed, for example, the work-for­
                     others agreements for developing and demonstrating PROTECT to
                     verify that Argonne was not competing with the private sector.
                     They were also briefed on the exclusive license after Argonne had
                     aw~ded it. These officials pointed out that they were not required
                     to review or approve licensing agreements prior to enactment. As
                     a result, they did not review or approve Argonne's process for
                     competing PROTECT nor the licensing agreement prior to award.
                     Our review established that the Argonne Site Office did, in fact,
                     approve Argonne's work for others request to engage in PROTECT
                     work with the subcontractor that ultimately would be awarded the
                     exclusive license. However, these Federal officials apparently
                     were unaware, because Argonne did not inform them, that the
                     subcontractor was presenting itself as the licensee and "business
                     partner" before Argonne competed the PROTECT license. In our
                     judgment, the sequence of events was problematic and may have
                     contributed to the concerns raised by the complainant.

Need for Increased   Collaboration with and technology transfer to the private sector
Transparency         will increase substantially through continued growth of the
                     Department's patent portfolio and as the Department moves to
                     implement the requirements ofthe American Recovery and
                     Reinvestment Act of2009. As such, it is essential that the
                     Department make the process as transparent as possible by
                     ensuring "fairness of opportunity," thereby permitting a full-range
                     of interested and capable firms to participate in activities designed



Page 5                                                                Details of Finding
                    to stimulate research and decrease dependence on foreign energy
                    sources. In this particular case, permitting the subcontractor to
                    contract directly for PROTECT related work prior to the award of
                    the license also resulted in the Department and Argonne not
                    receiving overhead and indirect costs which would have benefited
                    the U.S. taxpayer by absorbing relevant costs of Laboratory
                    operations. Further, Argonne did not receive royalties that would
                    have been paid had the licensing agreement been in effect.

RECOMMENDATIONS 	   We recommend that the Director, Office of Science, direct the
                    Argonne Site Office Contracting Officer to:

                         1. 	 Make a determination as to whether Argonne's actions
                              relating to PROTECT development and licensing were
                              appropriate. lfnot, make performance fee and/or other
                              adjustments, as appropriate.

                    As noted previously, our review disclosed that the practices used
                    by Argonne during the competition for the PROTECT license may
                    be similar to those employed by other Office of Science-managed
                    laboratories. To address concerns at Argonne and those that may
                    also exist at other Office of Science and Departmental laboratories,
                    we recommend that the Technology Transfer Coordinator, in
                    conjunction with cognizant program offices, direct the laboratories
                    to:

                         2. 	 Develop policies on how they intend to disseminate
                              licensing opportunities to provide "fairness of
                              opportunity" during competitions, especially as a part of
                              the American Recovery and Reinvestment Act Process;

                         3. 	 Maintain records of the requests for individual inventions
                              and the actions taken regarding collaborations/technology
                              licensing;

                         4. 	 Develop standards of conduct to guide employee actions
                              when developing and then promoting intellectual
                              property; and,

                         5. 	 Involve ombudsmen in complaint resolution activities
                              where practical and possible.




Page 6                                                             Recommendations
MANAGEMENT    Management indicated that it shared our concern regarding
AND AUDITOR   ensuring "fairness of opportunity" at all of the Department's
COMMENTS      laboratories. It expressed support for the development of
              formalized procedures for applying the "fairness of opportunity"
              doctrine (Recommendation 2) and agreed that more robust
              standards of conduct could help prevent the appearance of conflicts
              of interest (Recommendation 4). Management, however, disagreed
              with a number of the conclusions contained in the report and did
              not specifically indicate whether it agreed with Recommendations
              1, 3 and 5. To that extent, we consider management's comments to
              be non-responsive.

              Management did not agree with the report's assertion that Argonne
              did not satisfy Department objectives in providing "fairness of
              opportunity" in that Argonne took several steps to ensure fair
              dissemination of PROTECT-related licensing. While we do not
              disagree that Argonne took a number of actions in this regard, its
              process could have been strengthened by developing and
              publishing the procedures it would follow when offering
              inventions for licensing. In our opinion, publishing the licensing
              procedures and the opportunity specific information on Argonne's
              web site could have provided a relatively easy and inexpensive
              means to widely disseminate needed information. We also note
              Argonne's contract specifically requires it to develop procedures
              for satisfying the "fairness ofopportunity" doctrine.

              Management also asserts that contractor-operated laboratories such
              as Argonne are not required to follow the same strict licensing
              requirements as Federal laboratories. We recognize that this is the
              case, as noted in the body of our report, but point out that absent
              controlling Federal standards and a formal policy for the
              Department's laboratories, that Argonne relied on ad-hoc or
              informal procedures to identify firms that it would permit to
              compete.

              While management recognized that references to the ultimate
              licensee as a "business parmer" were inappropriate and agreed to
              strengthen conflict of interest procedures, it nevertheless disagreed
              with our conclusion that Argonne's efforts to avoid or ameliorate
              conflicts of interests were less than satisfactory. We do not find
              management's comment to be persuasive in this area, particularly
              since it noted that, "The use of the term business parmer is clearly
              erroneous and may have contributed to an appearance that the
              eventual PROTECT licensee may have had an advantage during
              the selection process."




Page 7                                                                 Comments
         Management also noted that statements in the report regarding
         Argonne's actions to permit the ultimate licensee to use and install
         PROTECT technology prior to the award of the exclusive license
         were misleading. Management noted that ifwork can be
         performed by the private sector, then that is the appropriate and
         preferred course of action. We do not dispute, in general, this is
         the preferred course of action. ill this case, the technology had not
         yet been licensed, however, the ultimate licensee was permitted to
         represent itself as the owner or licensee of PROTECT. These
         actions serve to perpetuate the appearance that there was indeed a
         conflict of interest in this case and that the company was pre­
         selected.

         With regard to fees or royalties discussed in the report,
         management indicates that since both of the transit agencies were
         Federal organizations, costs to the Govenunent as a whole would
         have been reduced by having the subcontractor perform the work.
         We concede that the Laboratory's contracting fees may have been
         greater than those charged by the subcontractor, resulting in greater
         costs to the transit agencies by contracting with the Laboratory, but
         note that funds appropriated for one agency may not be expended
         to support another. The other fees and license royalties should
         have been paid by the subcontractor. It is unknown or arguable as
         to whether these costs would have been passed on to the transit
         agency.

         Finally, management believed that our report infers that Argonne
         had a duty to use the services of the Technology Transfer
         Ombudsman. Management noted that the Technology Transfer
         Commercialization Act of2000 created the position and that the
         Laboratory could have enlisted the services ofthe ombudsman but
         was under no obligation to do so. Again, we do not dispute
         management's interpretation of the law in this area. As noted in
         our report, however, having and ombudsman and not utilizing the
         services of his office, in our opinion, appears to defeat the purpose
         and intent of the law.                             .




Page 8                                                            Comments
Appendix 1

OBJECTIVE     Our objective was to review selected aspects of PROTECT
              (program for Response Options and Teclmology Enhancements for
              Chemicallbiological Terrorism) to determine whether allegations
              that the licensing ofPROTECT was tainted by inadequate
              competition, conflicts of interest, and other improprieties had
              merit.

SCOPE         The review was performed from March 2009 through July 2009 at
              Argonne National Laboratory, and the Office of Science's Chicago
              and Argonne Site Offices in Argonne, Illinois. In particular, the
              review examined the licensing competition held for PROTECT as
              well as the events leading up to the competition.

METHODOLOGY   While reviewing the complainant's allegations we:
                   • 	 Reviewed Federal and Department of Energy (Department)
                       rules and regulations related to licensing activities;

                   • 	 Reviewed documents related to subcontracting 

                       relationships for PROTECT; 


                   • 	 Evaluated documents related to the licensing competition
                       and the resulting license; and,

                   • 	 Held discussions with Departmental and Laboratory
                       officials.

              In lieu of an exit conference, Department officials indicated that
              they would work to resolve comments that we considered to be
              non-responsive.




Page 9 	                                 Objective, Scope, and Methodology
Appendix 2 


                                      Related Audit Reports

• 	 Management ofPatent and Licensing Activities at Department-Owned, Contractor-Operated
    Laboratories (DOEIIG-0479, August 2000). While the Department of Energy (Department)
    controls were operating as intended, we noted that the number of complaints related to
    patents and licensing had increased in recent years. These complaints appeared to result, in
    part, from confusion and misunderstanding relating to patent infringement and competition
    with the private sector. The Department's Technology Transfer Working Group made a
    number of improvements, including two initiatives designed to assist the private sector when
    disputes related to the Department's technology transfer activities arise. First, each
    laboratory was to assign an ombudsman to serve as a focal point for industry and the public
    and to resolve complaints and disputes. Second, to facilitate resolution of complaints, the
    Working Group encouraged increased use of collaborative alternative dispute resolution
    techniques. Although these two initiatives are positive steps, we recommended that the
    Technology Transfer Working Group address these issues and propose administrative and/or
    legislative actions to clarify Government laboratories' role in interacting with the private
    sector.

• 	 Management Controls over Patent and Royalty Income at Ames Laboratory (OAS-M-05-05,
    May 2005). The audit disclosed that Ames had not adequately controlled and accounted for
    patent and royalty revenues, nor expended such funds to further research, technology
    transfer, and education. These issues occurred because the Department had not provided
    guidance regarding the extent to 'which its laboratories were permitted to rely on third-party
    entities to assume fiduciary responsibility for patent and royalty revenues. Furthermore, the
    Ames Site Office did not provide adequate oversight to ensure that Ames established a plan
    for the use ofpatent revenues in a manner consistent with contract terms. As a result,
    approximately $3.5 million generated by technology transfer is at greater risk of loss and of
    not being productively used.

• 	 Management Controls over the Technology Transfer and Commercialization Program at the
    Idaho National Laboratory (OAS-M-05-07, June 2005). Certain financial management
    activities associated with the Idaho National Laboratory's technology transfer and
    commercialization program were not managed by Bechtel BWXT Idaho, LLC (Bechtel)
    consistent with its contract terms. Specifically, Bechtel did not properly recognize royalties
    due from licensing activities and did not monitor expenditures to ensure they were within
    established administrative limits. This occurred because Bechtel did not take action to
    correct previously reported weaknesses and the Idaho Operations Office did not provide
    adequate oversight to ensure contract provisions were complied with and reported
    weaknesses corrected. Without adequate controls in place, the Department cannot ensure
    that certain financial aspects of its technology transfer and commercialization program are
    adequately managed. The report made recommendations to the Manager of the Idaho
    Operations Office to improve oversight of Bechtel's financial controls over its technology
    transfer and commercialization program.




Page 10                                                                  Related Audit Reports
 Appendix 3



                                                                  Department of Energy
                                                                        Washington, DC 20585




                                                                                 June 25, 2009


            MEMORANDUM FOR RICKEY R. HASS
                           DEPUTY INSPECTOR GENERAL
                               FOR AUDIT SERVICES
                           OFFICE O~SPECTO~GENE,-._RA_-.
            FROM: 	                          ~EV~~~                 .
                                             ACTING TECHNOLOGY TRANSFE

            SUBJECT: 	                       Response to Inspector General's Draft Report, "Allegations or
                                             Conflict oflnterest Regarding Licensing of PROTECT by
                                             Argonne National Laboratory"

            Thank. you for the opportunity to review and comment on the Report entitled "Allegations of Conflicts of Interest
            Regarding Licensing PROTECT by Argonne National Laboratory." The following is a consolidated response,
            which reflects the views of the Assistant General Counsel for Technology Transfer and Intellectual Property, the
            Acting Technology Transfer Coordinator, and the Office of Science.

            DOE shares the IG's concern for ensuring "faimess ofopportunity" at all DOE laboratories. Technology transfer is
            an important mission of both DOE and our laboratories and DOE is committed to providing fair opportunities in
            conjunction with all of its technology transfer activities. DOE supports several ofthe Report's recommendations
            that will further strengthen the ability of our laboratories to provide widespread dissem instion of technology
            transfer opportunities while limiting potential conflicts of interest. However, the Department respectfully disagrees
            with several ofthe Report's conclusions.

            DOE disagrees with the Report's assertion that Argonne National Laboratory (ANL) did not satisfy Department
            objectives in providing "fairness of opportunity" during licensing of PROTECT. In faer, ANL took several steps
            to ensure fair dissemination of information related to PROTECT including posting information about technology
            transfer opportunities regarding the technology on its website, soliciting at least eight potential licensees, and
            conducting II detailed and objective evaluation of the mUltiple proposals received. I

        The Report suggests that ANL's approach to "fairness ofopportunity" was not completely e.ltective since ANL
        failed to identify the complainant's firm as a party that might have been interested in the exclusive license.
        However, the standard for fairness of opportunity is 1I0t that a laboratory identify every firm that may be interested
        but rather is based on a reasonableness standard.· ANL's Prime Contract requires the laboratory to take "reasonable
        measures to ensure widesrread notice of availability oftechnologies suited for transfer and opportunities for
        exclusive licensing ...,,2.. OOE asserts that ANL made such efforts in this case.

        While DOE is committed to ensuring our laboratories pl'Ovide "fairness of opportunity," such concerns must be
        considered in light ofOOE's entire technology transfer policy which includes encouraging the deployment of DOE

         I Although enticized in the Report ANl's practice of identifying potenlialliccnsc<:s from information provided by inventors and loch 1...lIsfer staff is. 

        strakgy ulilill:d by many universities and fedemllab5. Menu of Best Practices in Technology Transfer (PIIl'I2). RQbcrt K. Carr. Tech T11II.8Ier. [992. 

        'See. TechnologyTnm.~fCf Mission Clause Ll13 Ofl!lC ANI. Prime Contra<:l, DOE ('OUimet No. DFrAC02-{)6CHI1357, DEAR 970.5227-3 





                                                               *
        'See aiso,SeClion 3133 of PL. 101-\89 




                                                                       Printed wiTh soy Ink ()fl r8C)<cjOO paper




Page 11 	                                                                                                                  Management Comments
Appendix 3 (Continued)



      technologies as expeditiously as possible to enhance the Nation's energy security, scientific discovery, economic
      competitiveness, and quality of life tbrough innovations in science and technology: DOE believes that the current
      reasonableness standard adequately addresses "fairness of opportunity" concerns while providing our laboratories
      some flexibility to ensure that technologies are deployed in the shortest time practicable.

      It is important to note that when licensing inventions, government-owned, contractor-operated federal laboratories
      such as ANL are not subject to the strict licensing requirements codified at 35 U.S.C 209 which require extensive
      publishing of exclusive licensing opportunities. Freeing contractor-operated federal laboratories from licensing
      new inventions under a strict licensing regime was clearly the intent of Congress when it amended the Bayh-Dolc
      Act, 35 U.S.C. 200 el seq in J984 to provide the contractors operating federal laboratories the same administrative
      freedom to license as had already been provided to Universities, non-profits and small businesses. This allows
      laboratories to transfer inventions to industry through licensing arrangements that can be as efficient as that
      accomplished by their university counterparts. As measured by the number of licenses issued and royalty revenue
      received, the result has been overwhelmingly positive. The flexibility to enter into licensing arrangements without
      overly burdensome government oversight Or cumbersome federal licensing requirements has and will continue to
      facilitate DOE laboratories' ability to transfer technology from our laboratories more efficiently, so that the
      technology can reach the marketplace for the bettennent of both the taxpayer and the U.S. economy.

      The Report repeatedly criticizes ANL for not developing a specific documented policy regarding how it provides
      "tairness of opportunity" in its licensing procedures. While ANL did not document its procedures, it is clear that
      ANL was cognizant of the "fairness ofopportunity" standard and took actions to ensure compliance. In fact, the
      Report recognizes that ANL "appeared to generally follow procedures used by other Departmental Office of
      Science laboratories including providing notice of opportunities through website postings, various media sources,
      and contacts made at meetings. s Nevertheless, DOE supports the recommendation that DOE laboratories develop
      more fonnalized "fairness of opportunity" procedures.

      DOE respectfully disagrees with the conclusion that ANL's efforts to avoid or ameliorate conflicts of interests prior
      to awarding the PROTECT license were less than satisfactory. However, DOE concurs in principle with the
      concern aboutthe inappropriate use of the term "business partncr" by both ANL and the eventual licensee in
      describing their relationship during certain collaborations. While the Department does actively encourage its
      laboratories to develop technology partnering programs, OOE does not in any way condone the use of the tern]
      "business partner." The use of the tenn "business partner" is clearly erroneous and may have contributed to an
      appearance that the eventual PROTECT licensee had an advantage during the selection process. Despite the
      inappropriate use of the tenn "business partner" by both ANL and the eventual PROTECT licensee, the Report
      itself concludes that ANL was still able to perform an objectivc evaluation of the submitted proposals. 6

      DOE also agrees that more robust standards of conduct to guide employee actions when developing and promoting
      intellectual property will hel p prevent the appearance of conflicts of interest duri ng commercialization of laboratory
      inventions.

      The Report concludes that ANL permitted 1:\\'0 transit agencies interested in installing PROTECT the option to
      award work directly to its subcontractor thereby depriving the taxpayer of the benefit of overhead dollars that
      would otherwise have been collected by ANL. This is misleading for 1:\vo reasons. Most importantly, if certain
      work can be performed by the private sector, mther than by a federally-funded laboratory, it is appropriate and
      preferred to have the private sector perform the work. Additionally, transit agencies installing the PROTECT
      program were federally funded. Therefore, it is to the taxpayer's advantage to leverage the federal funds in this way
      to lower the cost to taxpayers.




      I So!\!, Sccrct&rial Policy Statement on Tt(;hno\ogy Transfer al Department of Energy Facilities. January 31. 2008, 

      'See, 1'" and 4'" !I'IflIllT8Phs ofpllge I oftile Details of finding Section ofthe Report, 

      'See, I" full paragraph of page 2 of Details of Findinll oftlw RllPort. 



      June 25, 2009                                                                                                             Page 2 of4



Page 12                                                                                                                   Management Comments
Appendix 3 (Continued) 




      The language in the Report paragraph titled "Complaint Resolution" infers that the laboratory had a duty to use the
      services oftbe Technology Transfer Ombudsman. That is 110t the case. The decision to use the services of the
      Ombudsman is completely voluntary. Furthermore, the laboratory is not obli&>ated to notify the Ombudsman of any
      complaint.

      The Technology Transfer C(lll1merciaJizatioll Act of 2000 created the position of the Technology Transfer
      Partnership Ombudsman. Section 11 of the Act provides that the "Secretary of Energy shall direct the director of
      each nationallaborntory ofthe Department of Energy, and nlay direct the director of each facility under the
      jurisdiction of the Department of Energy, to appoint a technology partnership ombudsman (0 hear and help resolve
      complaints from ou/side organizations regarding the policies and actions of each such laboratory or facility with
      respect to technology partnership (including cooperative research and development agreements), patents, and
      technolOgy licensing" (emphasis added). The Technology Transfer Ombudsman positions were designed to provide
      outside organizations a forum for complaint resolution. The laboratory could enlist the services ofthe Ombudsman
      but is under no obligation to do so.

      Attached are DOE's responses to the faCts presented, proposed recommendations, and estimated potential monetary
      impact.



      Cc;     Team Leader, Audit LiaiS(ln Group, CF-I.2
              Manager, Argonne Site Office
              Audit Liaison, Chicago Office




      Memo fur Rickey R. Hass
      June 25, 2009                                                                                  Page 3 of4




Page 13                                                                                Management Comments
Appendix 3 (Continued)




          Management Response to the Statement of Fads

          DOE agrees in principle with the facts presented.

          Management Response to Recommendations:

          Recommendation that the Diredor of the Office of Science direct the Argonne Site Office
          Contracting Officer to make a determination as to whether ANL's actions relating to the
          PROTECT development and licensing were appropriate. If not, make performance fee and/or
          adjustments as appropriate.

          Management Response: The above recommendation puts the Contracting Officer in the position of
          either disagreeing with at least some of the IG's conclusions or disagreeing with Management's position
          that ANL abided by its contract. The situation is further complicated by the Report'S conclusion that
          ANL appeared generally to fo !low procedures used by other Departmental Office of Science laboratories.

          Recommendations for tlle Technology Transfer Coordinator to take actions and develop policies,
          specifically to direct the laboratories to develop polices on how the labs intend to disseminate
          licensing opportunities to provide "fairness of opportunity" during competitions, especially as a
          part of the American Rec.overy and Reinvestment Act Proccs,,>, t~ maintain records of the requests
          for individual inventions and the actions taken regarding collaborations/teclinology licensing. to
          develop standards of conduct to guide employee actions when developing and tllen promoting
          intellectual property. and to involve ombudsmen in complaint resolution activities wbere practical
          and possible.

          Management Response: The Department asserts that the fonnal policy development and related
          procedural changes raised by the report and all its reconlmendations would be most appropriately
          considered and addressed by the new DOE Technology Transfer Coordinator expected to be identified by
          th.e Administration. Due to the change of Administration. a new Technology Transfer Coordinator is not
          yet in place.

          Management Response to Reasonableness of the Estimated Potential Monetary Impact etc.

          DOE agrees with the Report's conclusion that there was no quanti.fiable Potential Monetary Impact as a
          result of ANL's actions in.licensing the PROTECT technology.




          Memo for Rickey R. 1·lass
          June 25. 2009                                                                                 Page 4 of4




Page 14                                                                              Management Comments
                                                                       IG Report No. DOEIIG-0819

                             CUSTOMER RESPONSE FORM


 The Office of Inspector General has a continuing interest in improving the usefulness of its
 products. We wish to make our reports as responsive as possible to our customers' requirements,
 and, therefore, ask that you consider sharing your thoughts with us. On the back ofthis form,
 you may suggest improvements to enhance the effectiveness of future reports. Please include
 answers to the following questions if they are applicable to you:

 1. 	 What additional background information about the selection, scheduling, scope, or 

      procedures ofthe inspection would have been helpful to the reader in understanding this 

      report? 


 2. 	 What additional information related to findings and recommendations could have been 

      included in the report to assist management in implementing corrective actions? 


 3. 	 What format, stylistic, or organizational changes might have made this report's overall 

      message more clear to the reader? 


. 4. 	 What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report which would have been helpful?

5. 	 Please include your name and telephone number so that we may contact you should we have
     any questions about your comments.


Name _ _ _ _ _ _ _ _ _ _ _ _ _ _ Date _ _ _ _ _ _ _ _ _ _ _ _ _ __

Telephone _ _ _ _ _ _ _ _ _ _ _ _ Organization _ _ _ _ _ _ _ _ _ _ __


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                 Office of Inspector General (IG-I)
                                       Department of Energy
                                      Washington, DC 20585

                                    ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   u.s. Department of Energy Office of Inspector General Home Page
                                          http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
